No.

 

 

IN THE

Supreme Court of the United States

JUAN CARLOS CELESTINO
CODERCH MITJANS,

Petitioner,
v.

EGI-VSR, LLC,
Respondent.

On Petition for a Writ of Certiorari to the United
States Court of Appeals for the Eleventh Circuit

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
6,015 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on November 20, 2020.

Colin Casey ‘Doon

Wilson-Epes Printing Co., Inc.
